CERTIFICATE OF WORD COUNT
NO. TBD
Richard Spinnenweber, Et al.,
Petitioners,
v.
Dan Williams,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the RICHARD SPINNENWEBER,
ET AL. PETITION FOR WRIT OF CERTIORARI contains 2371 words, including the parts of the brief that
are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 21, 2020

SCP Tracking: Printy-1804 Miccosukee Commons Drive-Cover White

